Case: 20-35320, 06/11/2020, ID: 11718931, DktEntry: 7, Page 1 of 1

UNITED STATES COURT OF APPEALS

FILED
JUN 11 2020

FOR THE NINTH CIRCUIT

MOLLY C. DWYER, CLERK
U.S. COURT OF APPEALS

UNITED STATES OF AMERICA,
Plaintiff-Appellee,
v.
ADRIEN JOHN MATUCK,

No.

20-35320

D.C. Nos.

4:17-cv-00057-BMM
4:12-cr-00022-BMM-1
District of Montana, Great Falls
ORDER

Defendant-Appellant.
Before:

TROTT and N.R. SMITH, Circuit Judges.

The request for a certificate of appealability (Docket Entry No. 3) is denied
because appellant has not made a “substantial showing of the denial of a
constitutional right.” 28 U.S.C. § 2253(c)(2); see also Miller-El v. Cockrell, 537
U.S. 322, 327 (2003).
Any pending motions are denied as moot.
DENIED.

Case 4:12-cr~00022-BMM Document 155 Filed 08/08/18 Page 1 of 4

IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF MONTANA
GREAT FALLS DIVISION

CR 12-22-GF-BMM

UNITED STATES OF AMERICA,
PlaintifT/Respondent,

ORDER

vs.
ADRIEN JOHN MATUCK,
Defendant/Movant.

This case comes before the Court on Defendant/Movant Adrien John
Matuck’s motion to vacate, set aside, or correct his sentence, pursuant to 28 U.S.C.
§ 2255. Matuck is a federal prisoner proceed in g_ pro se.
On April 17, 2018, the Court denied most of Matuck’s claims and required
defense counsel to respond to one claim regarding juror bias by stating whether
they knew' none of the jurors was acquainted with or related to the victim,
Raymond Brown. The issue arises because the record indicates the potential jurors
were not told the name of the murder victim until the United States gave its
1

l

Case 4:12-cr-00022-BMM Document 155 Filed 08/08/18 Page 2 of 4

opening statement. See 2 Trial Tr. (Doc. 126) at 43:1-44:10, 83:7-85:8; 1 Trial IT.
(Doc. 125) at 46:13-17; see also Order (Doc. 150) at 1-2.
In response to the Order, trial counsel states that, based on his recollection,
neither of the two jurors named Brown “were or appeared to be Indian persons.
Counsel Aff. (Doc. 152) at 2 *' 1. Counsel also states:
Affiant trial counsel believed none of Adrien Matuck/s jurors was
acquainted with or related to Raymond J. Brown. Although no formal
inquiry was made by the Affiant, based on knowledge and experience
it [was] Affiant’s professional judgment that neither individual named
Brown was related to the deceased, Raymond J. Brown.
Id. at 3 % 2; see also Co-Counsel AIT. (Doc. 154) at 1 ^ 2.
Counsel avers that the circum stances of the case did not suggest any of the
prospective jurors were related to or acquainted with the victim. It may still have
been unreasonable for counsel (and the United States) to fail to ask the question.
Avoiding possible bias is the reason jurors were asked whether they knew any of
the potential witnesses, the defendant, and counsel. The same reasoning applies to
the murder victim.
The United States must file an answer to Matuck/s claim. If it knew at the
time of trial or now knows that none of the jurors were related to or acquainted
with Raymond Brown, it must say so and explain how it knows. At this time,
however, no one may contact a juror. See D. Mont. L.R. CR 24.2(b) (Dec. 1,
1
One of the people named Brown served on. two occasions as a j uror in the Blackfeet
Tribal Court, see 2 Trial Tr. (Doc. 126) at 22:8-14, 72:22-24, perhaps suggesting he was an
Indian person. The crime in this case occurred on the Fort Peck Reservation.

2

2 (rf ^

Case 4:12-cr-00022-BMM

Document 155 Filed 08/08/18 Page 3 of 4

2017).
Matuck previously asked the Court to appoint new counsel to represent him.
See Letter Mot. for Extension of Time (Doc. 144) at 1. He was financially
qualified for the appointment of counsel under the Criminal Justice Act and was
found unable to pay a fine. See Order (Doc, 5); Presentence Report f 95.
Discovery and/or an evidentiary hearing may he necessary to develop the
remaining claim. It serves in the interest of justice to appoint counsel. See 18
U.S.C. § 3006A(a)(2)(B).
Accordingly, IT IS HEREBY ORDERED:
1. The Federal Defenders shall promptly locate conflict-free counsel to
represent Matuck.
2. Counsel must immediately file a Notice of Appearance on Matuck’s
behalf. At that point, the Court will issue a formal order of appointment.
3. On or before September 14, 2018, the United States must file an answer
to Matuck’s claim that he suffered from counsel’s failure to ask whether any of the
jurors were acquainted with or related to Raymond Brown. The answer shall
respond to the allegations on the merits and shall raise, but need not brief, any and
•: 1

all procedural defenses that it wishes the Court to consider. Defenses not raised
will be deemed waived. The United States may file a motion to dismiss if it
believes procedural grounds for dismissal exist, but it may not file a motion to
3

So

Case 4:12-cr-00022~BMM

Document 155 Filed 08/08/18 Page 4 of 4
{.

•w

/a

.t

j

i

<

",

dismiss in lieu of an ansvw.'-Any reference to individual jurors must use onlv the
....

I

; i

- '

V .

juror's initials.
4. Counsel for Matuck may file a reply within 21 days of the filing of the
answer.

.*■

DATED this 8th day of August, 2018.

i
■

!

i

L' ./
Brian’Mort is
United States District Court Judge

u-til

•

t\*

r-V,,

,}t

j '3^ - r -T • , <

;
! i

i

r.

*
?

mi;

•-.AJ
f. .

•••

•- :

f

T.

(

‘

- W

i

f ;
■

\

4

Case 4:12-cr-00022-BMM Document 192 Filed 03/02/20 Page 1 of 6

IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF MONTANA
GREAT FALLS DIVISION

Cause No. CR 12-22-GF-BMM
CV 17-57-GF-BMM

UNITED STATES OF AMERICA,
Plaintiff/Respondent,

ORDER DENYING § 2255 MOTION
AND CERTIFICATE OF
APPEALABILITY

vs.
ADRIEN JOHN MATUCK,
Defendant/Movant.

This case came before the Court on Defendant/Movant Matuck’s motion to
vacate, set aside, or correct the sentence under 28 U.S.C. § 2255. A jury convicted
Matuck of first-degree murder. He is serving a sentence of life in prison. See
Judgment (Doc. 116) at 2; 18 U.S.C. § 1111(b).
Matuck filed his § 2255 motion pro se. After giving Matuck an opportunity
to explain a few claims in more detail (Doc. 148), the Court denied all but one.
See Order Denying Some Claims (Doc. 151).

1

Case 4:12-cr-00022-BMM Document 192 Filed 03/02/20 Page 2 of 6

I. Voir Dire Claim
The sole remaining claim alleged that counsel unreasonably failed to
ascertain, in voir dire, that the jury foreperson, whose name was Brown, was not a
relative of the victim, Raymond Brown. Defense counsel responded by affidavit
with a reasonable explanation of why they believed none of the jurors was related
to Raymond Brown. See Order (Doc. 155). The transcript of trial and voir dire did
not indicate, however, that anyone told the panel of potential jurors the name of the
victim until the United States gave its opening statement. Conceding the high
improbability that a juror actually knew Brown and yet failed to say so, the lack of
certainty remained problematic.
The Court appointed new counsel to represent Matuck. The parties agreed
to retain an investigator to locate the trial jurors and ask each of them these
questions:
1. Did the person serve on the jury at Matuck’s trial?
2. Did the person remember serving on the jury?
3. Did the person have knowledge of, or was the person acquainted with, the
victim Raymond Brown at the time of trial?
Sealed Order (Doc. 181) at 1.
The investigator located and questioned all jurors. All responded “Yes” to
the first two questions and “No” to the third. See Sealed Memoranda (Docs. 177,
190). Neither Matuck’s motion and reply nor anything else in the record suggest
■

2

Case 4:12-cr-00022-BMM Document 192 Filed 03/02/20 Page 3 of 6

any reason to believe a juror knew Brown.
No further proceedings are necessary. Matuck’s claim is denied. See Davis
v. Ayala, 135 S. Ct. 2187, 2197-98 (2015); Strickland v. Washington, 466 U.S.
668, 694 (1984).
II. Certificate of Appealability
“The district court must issue or deny a certificate of appealability when it
enters a final order adverse to the applicant.” Rule 11(a), Rules Governing § 2255
Proceedings. A COA should issue as to those claims on which the petitioner makes
“a substantial showing of the denial of a constitutional right.” 28 U.S.C. §
2253(c)(2). The standard is satisfied if “jurists of reason could disagree with the
district court’s resolution of [the] constitutional claims” or “conclude the issues
presented are adequate to deserve encouragement to proceed further.” Miller-El v.
Cockrell, 537 U.S. 322, 327 (2003) (citing Slack v. McDaniel, 529 U.S. 473, 484
(2000)).

Witness testimony and forensic evidence supported Matuck’s conviction.
See Order (Doc. 151) at 11-15. None of his claims supports an inference that
something went fundamentally awry at his trial.
Matuck did not tell trial counsel that he believed another person, Grey Bull,
was in the house at the time of the murder, and no one else suggested he was there.
Despite an invitation to do so, Matuck did not tell the Court anything about a
3

Case 4:12-cr-00022-BMM Document 192 Filed 03/02/20 Page 4 of 6~

second person, Leggitt, whom he claimed trial counsel should have interviewed.
Matuck claims counsel should have included in his suppression motion an
assertion that Matuck asked for a lawyer. An officer testified at trial that Matuck
did indeed ask for a lawyer, but no one questioned him at that time, so he was not
entitled to lawyer. Four jurors who said in voir dire that they heard media
coverage about the murder were not selected for the jury.
Complaints about counsel’s allegedly unprofessional conduct were
weightless. Counsel reasonably declined to bring to the jury’s attention some
witnesses’ prior inconsistent statements that were more incriminating to Matuck
than their trial testimony. Finding or not finding forensic evidence about Matuck
and Brown fighting inside or outside the car the night before the murder would not
be probative of any contested issue, as everyone agreed that they fought. Matuck’s
absence from a day of Marine Corps training when the subject was garroting would
not negate the effect of Matuck’s receipt of the training manual.
The witnesses identified Matuck from a photograph because he had a full
head of hair at trial and none at the time of the murder. Witness testimony was not
necessary to establish premeditation, because the forensic medical examiner
testified that strangling Brown to death would have taken at least 30 seconds of
sustained effort. The jury knew Matuck’s nose had bled all night and yet none of
his blood was found on Brown’s recliner. Matuck’s claims that counsel failed to
4

— Case 4:12-cr-00022-BMM Document 192 Filed 03/02/20 Page 5 of 6

point out other facts to the jury are simply mistaken, because counsel did point out
the facts.
Matuck made no allegation suggesting his period of tribal custody
contributed in any way to his federal conviction. And his claims of ineffective
assistance of appellate counsel failed to identify any omitted but potentially valid
claim.
Finally, the Court addressed at length Matuck’s claim about his status as an
Indian person. Lockhart v. Fretwell, 506 U.S. 364, 370-72 (1993), required its
denial, and key factual distinctions between Matuck’s case and the later-overruled
panel decision in United States v. Zepeda, 738 F.3d 201 (9th Cir. 2013), rendered
his claim insubstantial even apart from Fretwell.
There is no reason to encourage further proceedings. A COA is not
warranted.
Accordingly, IT IS ORDERED:
1. Matuck’s voir dire claim is DENIED. All claims having been denied,
Matuck’s motion to vacate, set aside, or correct the sentence under 28 U.S.C. §
2255 (Doc. 146) is DENIED.
2. A certificate of appealability is DENIED. The Clerk of Court shall
immediately process the appeal if Matuck files a Notice of Appeal.
3. The Clerk of Court shall ensure that all pending motions in this case and
5

Case 4:12-cr-00022-BMM Document 192 Filed 03/02/20 Page 6 of 6

in CV 17-57-GF-BMM are terminated and shall close the civil file by entering
judgment in favor of the United States and against Matuck.
DATED this 2nd day of March, 2020.

Brian Morris
United States District Court Judge

6

Case 4:12-cr-00022-BMM Document 151 Filed 04/17/18 Page 1 of 28

IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF MONTANA
GREAT FALLS DIVISION
CR 12-22-GF-BMM

UNITED STATES OF AMERICA,
Plaintiff/Respondent,

ORDER DENYING SOME
CLAIMS

vs.
ADRIEN JOHN MATUCK,
Defendant/Movant.

This case comes before the Court on Defendant/Movant Adrien John
Matuck’s motion to vacate, set aside, or correct his sentence, pursuant to 28 U.S.C.
§ 2255. Matuck is a federal prisoner proceeding pro se.
I. Preliminary Review
Before the United States answers the motion, the Court must decide whether
“the motion and the files and records of the case conclusively show that the
prisoner is entitled to no relief.” 28 U.S.C. § 2255(b); see also Rule 4(b), Rules
Governing Section 2255 Proceedings for the United States District Courts. A
petitioner “who is able to state facts showing a real possibility of constitutional
1

Case 4:12-cr-00022-BMM Document 151 Filed 04/17/18 Page 2 of 28

error should survive Rule 4 review.” Calderon v. United States Dist. Court, 98
F.3d 1102, 1109 (9th Cir. 1996) (uNicolas,,) (Schroeder, C.J., concurring)
(referring to Rules Governing § 2254 Cases). The Court possesses a duty to
“eliminate the burden that would be placed on the respondent by ordering an
unnecessary answer.” Advisory Committee Note (1976), Rule 4, Rules Governing
§ 2254 Cases, cited in Advisory Committee Note (1976), Rule 4, Rules Governing
§ 2255 Proceedings.
II. Background
A grand jury indicted Matuck on one count of first-degree murder, and, in
the alternative, one count of second-degree murder, both violations of 18 U.S.C.
§1111(a). The indictment alleged that Matuck killed Raymond Brown on or about
August 7, 2011, and asserted jurisdiction under the Major Crimes Act, 18 U.S.C.
§ 1153(a). See Indictment (Doc. 7) at 22.
Matuck filed motions to suppress his August 7, 2011, statement to law
enforcement officers and to exclude evidence of his Marine Corps training, noticed
under Federal Rule of Evidence 404(b). The Court denied both motions. See
Notice of Other Acts Evid. (Doc. 27); Mots. (Docs. 32, 34); Order (Doc. 46).
The parties stipulated before trial that “Adrien John Matuck is an Indian
person.” Stipulation (Doc. 79) at 2 ]f 1.
Trial commenced on September 4, 2012. After two days of testimony, the
2

Case 4:12-cr-00022-BMM Document 151 Filed 04/17/18 Page 3 of 28

jury deliberated for four hours, including an overnight recess. The jury convicted
Matuck of first-degree murder. Minutes (Docs. 89, 91, 92); Verdict (Doc. 100).
Gallagher and Arvanetes withdrew from representation after trial. Palmer
Hoovestal was appointed in their place. Hoovestal filed a motion for new trial
based on Matuck’s relation of his own account of Brown’s death. Hoovestal’s
written offer of proof stated that “Matuck did not disclose these events to his
previous counsel or to law enforcement out of fear of retaliation by John
Whiteman.” Whiteman testified as a witness for the government. See Br. in Supp.
(Doc. 113) at 4. The Court denied the motion because the evidence set forth in the
offer of proof was not “newly discovered.” See Order (Doc. 124) at 2.
The Court sentenced Matuck to life in prison. If Matuck is released, he will
serve a five-year term of supervised release. See 18 U.S.C. § 1111(b)(1);
Judgment (Doc. 116) at 2-3.
Matuck appealed the denial of his motion for new trial and the sufficiency of
the evidence proving his Indian status. The Ninth Circuit rejected his claims and
affirmed his conviction on March 16, 2016. See Mem. (Doc. 142) at 2-3, United
States v. Matuck, No. 13-30004 (9th Cir. Mar. 16, 2016).
Matuck’s conviction became final on June 14, 2016. He timely filed his
§ 2255 motion on June 13, 2017. See 28 U.S.C. § 2255(f)(1); Gonzalez v. Thaler,
565 U.S. 134, 150 (2012); see also Mot. § 2255 (Doc. 146) at 6 Deck | C; Houston
3

Case 4:12-cr-00022-BMM Document 151 Filed 04/17/18 Page 4 of 28

v. Lack, 487 U.S. 266, 276 (1988).
III. Claims and Analysis
All of Matuck’s claims allege, at least in part, that trial and/or appellate
counsel provided ineffective assistance of counsel. Strickland v. Washington, 466
U.S. 668 (1984) governs the claims. See also Smith v. Robbins, 528 U.S. 259, 285
(2000). At this stage of the proceedings, Matuck must allege facts sufficient to
support an inference (1) that counsel’s performance fell below an objective
standard of reasonableness, id. at 687-88, and (2) that there is “a reasonable
probability that, but for counsel’s unprofessional errors, the result of the
proceeding would have been different,” id. at 694. “[Tjhere is no reason ... to
address both components of the inquiry if the defendant makes an insufficient
showing on one.” Id. at 697.
A. Indian Status
The indictment invoked jurisdiction under the Indian Major Crimes Act, 18
U.S.C. § 1153(a). Section 1153 confers federal jurisdiction over certain offenses,
including first- and second-degree murder, committed in “Indian country,” see id.
§ 1151, by “[a]ny Indian,” id. § 1153(a). The United States had to prove, beyond
reasonable doubt, that Matuck was an Indian. See United States v. Cruz, 554 F.3d
840, 845 (9th Cir. 2009).
1. Ex Post Facto Violation
4

Case 4:12-cr-00022-BMM Document 151 Filed 04/17/18 Page 5 of 28

Matuck claims he was convicted under an ex post facto application of
controlling law and that appellate counsel provided ineffective assistance of
counsel when he failed to present this argument. See Mot. § 2255 (Doc. 146) at 4
fflf 5 A, 5B; id. at 8-13, 32. In affirming Matuck’s conviction, the Ninth Circuit
applied United States v. Zepeda, 792 F.3d 1103, 1115-16 (9th Cir. 2015) (en banc).
See Mem. (Doc. 142) at 2, United States v. Matuck, No. 13-30004 (9th Cir. Mar.
16, 2016). The Ninth Circuit decided Zepeda nearly four years after Brown’s
murder.
The Ex Post Facto Clause, see U.S. Const, art. I, § 9, cl. 3, prohibits four
types of statutory laws or rules, see Rogers v. Tennessee, 532 U.S. 451, 456 (2001)
(quoting Calder v. Bull, 3 U.S. (3 Dali.) 386, 390 (1798) (Chase, J.)). The Ex Post
Facto Clause applies to Congress, not to the courts. A new judicial decision
generally applies to acts committed before its issuance unless application of the
new decision would deprive, in effect, the defendant of fair notice of what conduct
is prohibited or is required of him by “attaching criminal penalties to what
previously had been innocent conduct.” See, e.g, Bouie v. City of Columbia, 378
U.S. 347, 355 (1964); Douglas v. Buder, 412 U.S. 430, 432 (1973). Nothing
protects Matuck against prejudice from judicial decisions made after he committed
the crime. See generally Rogers, 532 U.S. at 460-62.
Matuck claims the Ninth Circuit’s decision in Zepeda “alter[ed] the legal
5

Case 4:12-cr-00022-BMM Document 151 Filed 04/17/18 Page 6 of 28

rules of evidence” and allowed conviction based on “less, or different, testimony,
than the law required at the time of the commission of the offense.” Rogers, 532
U.S. at 456 (quoting Calder, 3 U.S. at 390). Zepeda in fact, did make it easier for
the United States to establish federal jurisdiction under 18 U.S.C. § 1153. The new
interpretation no longer required the government to prove a defendant’s Indian
blood came from a federally recognized tribe. See 792 F.3d at 1113. Courts
possess “substantial leeway,” however, to make such decisions and to apply them
to past conduct. See Rogers, 532 U.S. at 461-62.
The Ninth Circuit’s decision in Zepeda altered the legal elements of Indian
status and the evidence appropriate to establish it. This revision did not deprive
Matuck of due process. He had fair notice, before he acted, that intentionally
killing someone would subject him to criminal prosecution and punishment.
Matuck’s ex post facto claim is denied.
2. Sufficient Evidence and Ineffective Assistance of Counsel
With liberal construction,1 Matuck can also be understood to allege that the
United States failed to prove that he had Indian blood traceable to a federally
recognized tribe, and that counsel provided ineffective assistance of counsel for

1
Courts are required to construe self-represented prisoners’ pleadings liberally. See, e.g.
Erickson v. Pardus, 551 U.S. 89, 94 (2007) (per curiam); Rishor v. Ferguson, 822 F.3d 482, 495
(9th Cir. 2016); Butler v. Long, 752 F.3d 1177, 1180 (9th Cir. 2014); Zichko v. Idaho, 247 F.3d
1015, 1020-21 (9th Cir. 2001). Even with liberal construction, Matuck does not challenge the
sufficiency of the evidence or counsel’s performance with respect to the second prong of the
Maggi test. See Mot. § 2255 at 9-13; see also infra at 7. It will not be addressed.

6

Case 4:12-cr-00022-BMM Document 151 Filed 04/17/18 Page 7 of 28

failing to argue. See, e.g., Mot. § 2255 at 10, 12. This claim depends on the law in
effect at the time of trial—the law Matuck believes was more favorable to him.
See Strickland, 466 U.S. at 689 (requiring evaluation of counsel’s decisions “from
counsel’s perspective at the time”). The law does not support this sort of claim.
See Lockhart v. Fretwell, 506 U.S. 364, 370-72 (1993). It further appears that the
outcome of his case would not have been different even if counsel had raised this
issue on appeal.
To establish federal jurisdiction over Matuck’s case, the United States had to
prove at trial that Matuck was an Indian person. See 4 Trial Tr. (Doc. 128) at
550:17, 552:12; see also Def. Proposed Jury Instrs. (Doc. 69-1) at 1, 3, 8. No
statute defines who counts as an “Indian person,” Courts have developed the
criteria. At the time of Matuck’s trial, the Ninth Circuit’s “Indian person” test
required the United States to prove the following elements:
(1)

the defendant had a quantum of Indian blood traceable to a federally
recognized tribe; and

(2)

the defendant was a member of, or was affiliated with, a federally
recognized tribe.

See United States v. Maggi, 598 F.3d 1073, 1080-81 (9th Cir. 2010); see also
United States v. Bruce, 394 F.3d 1215, 1223-24 (9th Cir. 2005).
Before trial, defense counsel and the United States stipulated that “Adrien
John Matuck is an Indian person.” Stipulation (Doc. 79) at 211; see also 1 Trial
7

Case 4:12-cr-00022-BMM Document 151 Filed 04/17/18 Page 8 of 28

Tr. (Doc. 125) at 3:7-9 (showing Matuck was present); id. at 3:22. Matuck’s
stipulation to the jurisdictional element relieved the United States of the need to
introduce evidence on either prong of the Maggi test. See, e.g., 1 Trial Tr. (Doc.
125) at 68:9-11, 71:19-23; 4 Trial Tr. at 548:22-25. The United States relied on
the stipulation in closing argument. See 4 Trial Tr. at 574:11-13.
Counsel frequently stipulate to facts, even jurisdictional facts, when no
realistic hope exists of contesting them. See, e.g, United States v. Benedict, 855
F.3d 880, 887-88 (8th Cir. 2017); United States v. Crowe, 735 F.3d 1229, 1243-45
(10th Cir. 2013); United States v. Celaj, 649 F.3d 162, 168-70 (2d Cir. 2011);
United States v. Gullett, 75 F.3d 941, 947 (4th Cir. 1996); see also United States v.
Sherrod, 445 F.3d 980, 981-82 (7th Cir. 2006). To prevail here, Matuck must
show he could have contested facts relevant to the first prong of the Maggi test.
Matuck’s tribal enrollment certificate2 showed that Matuck was 13/16
Hualapai and 1/8 Havasupai. See Appellant Br. Gov’t Ex. 1 (Doc. 10-2) at 1,
United States v. Matuck, No. 13-30004 (9th Cir. filed June 4, 2013); compare, e.g,
United States v. Seymour, 684 Fed. Appx. 662, 663 (9th Cir. 2017) (unpublished
mem. disp.) (holding that certificate showed tribal membership but “says nothing
about Seymour’s Indian blood” and so did not meet first prong of test), cited in
2
The parties stipulated to the certificate’s admissibility. Matuck claims it was not self­
authenticating, see Mot. § 2255 at 11, but it did not need to be. The United States could have
called a witness to authenticate it but did not because of the stipulation. Matuck does not claim
the certificate was not his.

8

------- Case 4:l2-cr-00022-BMM Document 151 Filed 04/17/18 Page 9 of 28

Mot. § 2255 at 9, 12.
The Federal Register established the Hualapai Tribe’s federal recognition as
of the date of Brown’s murder. See 75 Fed. Reg. 60810, 60811 (Oct. 1, 2010); see
also 77 Fed. Reg. 47868, 47870 (Aug. 10, 2012). The certificate proved both that
Matuck had Indian blood and that it came from the Flualapai Tribe. Absent a
stipulation, the United States would have been required to call a witness to
authenticate the certificate and obtain either testimony or a jury instruction
regarding the Hualapai tribe’s federal recognition. It was not unreasonable for
counsel to enter into a stipulation relieving the United States of its burden of proof
on the first prong of the Maggi test, when no realistic prospect existed that the
proof would have failed.
The distinction between Matuck’s case and Zepeda and Maggi is greater
than he appears to realize. The defendant in Zepeda claimed that a difference
existed between “the Tohono O’Odham Nation ofArizona,” which was recognized
by the government of the United States, and the “Tohono O’Odham” bloodline
listed on his tribal enrollment certificate. He averred that “a substantial portion” of
people of Tohono O’Odham blood had “always resided in the Sonoran Desert of
northwest Mexico.” Zepeda, 738 F.3d 201, 212 (9th Cir. 2013) (quoting
defendant’s brief) (emphases added). In other words, Zepeda’s bloodline could
have come from a tribe in Mexico, not the tribe in Arizona recognized by the
9

Case 4:12-cr-00022-BMM Document 151 Filed 04/17/18 Page 10 of 28

United States.
Defendant Mann’s tribal enrollment certificate in Maggi showed that he was
10/64 Chippewa and 11/64 other Indian blood. See Maggi, 598 F.3d at 1080. A
blood quantum of 10/64 Chippewa could have supported Indian status. Mann
descended from the Little Shell Tribe of the Chippewa Cree, however, which has
not been federally recognized, rather than from the federally recognized Chippewa
Cree Indians of the Rocky Boy’s Reservation. See id. at 1076.
In both Zepeda and Maggi, some evidence suggested that the defendant’s
bloodline did not come from a federally recognized tribe. This issue forced the
Ninth Circuit to decide whether the United States must prove that the defendant’s
bloodline came from a federally recognized tribe. Eventually, the en banc court
decided federal recognition need not be proved under the first prong of the “Indian
person” test. See Zepeda, 792 F.3d at 1107. This issue never mattered to Matuck’s
case. He pointed to no group of Hualapai people who are not connected to the
“Hualapai Indian Tribe of the Hualapai Indian Reservation, Arizona.” He also has
failed to claim that his bloodline originates with the group that is not federally
recognized.
The United States would have been able to prove Matuck was an Indian
person even under the more demanding Maggi test. Counsel did not provide
ineffective assistance of counsel when he stipulated to Matuck’s Indian status.
10

ease-4:12-cr-00022-BMM Document 151 Filed 04/17/18 Page 11 of 28-----

This claim is denied.
B. Ineffective Assistance of Trial Counsel
Matuck criticizes many aspects of his trial attorneys’ performance. These
allegations have been reorganized here.
1. Summary of Trial Testimony
John Whiteman and the victim, Raymond Brown, were cousins and longtime
friends. On the night of the murder, Matuck, Whiteman, and Brown were together
drinking, driving around, and visiting various people. At some point, Whiteman
and Matuck became irritated with Lance Adams. Adams had been teasing them
about consuming other people’s alcohol without paying for any themselves.
Three witnesses testified that Matuck made an attempt to grab Adams by the
throat. Two of these witnesses stated that Matuck had said “something about. ..
killing people in the Marines in Iraq.” See 1 Trial Tr. (Doc. 125) at 88:16-20
(Whiteman); 3 Trial Tr. (Doc. 127) at 282:8-283:14 (Vondall), 291:18-293:1
(Adams). Adams testified on cross-examination that Whiteman had encouraged
Matuck to “get him,” meaning Adams. See 3 Trial Tr. at 293:15-294:15.
At another point, Markie Vondall got into the back seat of the vehicle with
Brown, who had fallen asleep. The car was stopped. Vondall did something that
woke Brown suddenly, and he shoved or struck her. Matuck confronted Brown.
Vondall testified that Matuck referred then to having been “a Marine.” See 3 Trial
11

-Case 4:12-cr-00022-BM M Document 151 Filed 04/17/18 Page 12 of 28

Tr. at 286:16-287:3.
Brown hit Matuck two or three times in the face, drawing blood. The fight
broke off, but Launa Swanson testified that Matuck pointed at Brown and said
“I’m going to get you.” See id. at 255:14-256:8, 269:10-270:5. Matuck’s nose
was bloody for the rest of the night. He used his black t-shirt, imprinted on the
front with the name of a band, “As I Lay Dying,” to wipe his nose.
Matuck, Brown, Whiteman, and Swanson all went to Whiteman’s trailer to
listen to music. Swanson passed out. Whiteman testified that he and Brown were
singing, but both decided to go to sleep. Brown was sitting in a recliner.
Whiteman testified it was nearly dawn.
Yvette White Hawk looked out her window around 8:00 a.m. because her
dog was barking. She saw a man walking around the neighborhood. Her son,
Gabe Garfield, also looked. He testified that he saw Matuck, whom he knew, stop,
look around, and then reach into his shorts to pull out a long strip of grey fabric.
When exhibited at trial, the fabric appeared to have been torn from a t-shirt.
Garfield watched Matuck go to the corner of a neighboring house, Carol
Marculieff s, and place the strip of fabric under a brick in a drainage gutter.
Matuck walked around the corner of the house. He encountered Marculieff
on the back porch and asked her for Kool-Aid. Marculieff had no Kool-Aid, and
Matuck left. Leon Marculieff called Matuck over to the nearby home of Margaret
12

-Case 4:12-cr-00022-BMM Document 151 Filed 04/17/18 Page 13 of 28

“Mugsy” Loves Him. Matuck drank there for about an hour where he was rude
and confrontational. Loves Him pushed Matuck out the door.
Matuck returned to Whiteman’s trailer. Whiteman and Swanson had
awakened and noticed that Matuck was gone. When he entered the trailer, they
asked Matuck where he had been. Matuck said he had been “upstairs.” See 1 Trial
Tr. at 100:1-9 (Whiteman), 259:5-17 (Swanson). Whiteman’s trailer had only one
level.
Whiteman and Swanson decided to leave. They were unable to wake
Brown, who was still sitting in the recliner. They realized Brown’s tongue was
protruding from his mouth, his body was cold, and they could not detect a
heartbeat. They called 911.
News that Brown was dead spread quickly through the neighborhood.
People gathered outside Whiteman’s trailer. Although Matuck was standing with
Whiteman and comforting him when police arrived, the crowd soon turned on
Matuck. Brown’s uncle and twin brother confronted him and asked, “Did you do
that to my nephew?” See 1 Trial Tr. at 111:9-22 (Whiteman). Officer Dale,
concerned for Matuck’s safety, escorted him to a police vehicle. When Brown’s
family members tried to open the vehicle doors to get at Matuck, Dale drove
Matuck to the tribal jail for his protection. Matuck had no access to additional
alcohol after about 11:00 a.m.
13

Case 4:12-cr-00022-BMM Document 151 Filed 04/17/18 Page 14 of 28

FBI Agent Overby interviewed Matuck at about 5:00 p.m. Matuck provided
a generally detailed statement that proved consistent with statements given a few
hours later by Whiteman and Swanson. Matuck said nothing about having left
Whiteman’s trailer and wandering around the neighborhood in the morning before
Whiteman and Swanson awoke.
Overby asked Matuck what he was wearing the night before. Matuck said
he had been wearing a black t-shirt, but had taken it off and put on a grey shirt (not
torn) that he had found in Whiteman’s trailer. Matuck explained that he had used
the black shirt to wipe his nose, which had been bleeding all night. Matuck did not
remember how his nose had been bloodied.
Neither Overby nor the detention officer thought Matuck was drunk. A
breath test administered after the interview, at 6:30 p.m., indicated, however, a
blood-alcohol concentration of 0.175. A forensic chemist extrapolated that level
back to arrive at a range of 0.269 to 0.242 at 2:00 p.m. and a range of 0.362 to
0.310 at 11:00 a.m.
Meanwhile, Gabe Garfield retrieved the strip of grey t-shirt-type fabric that
he had seen Matuck hide in the drainage gutter. Garfield took the fabric into his
house where he dropped it on the floor. White Hawk put the fabric in a plastic bag
and turned it over to police. Visible dark red stains on the fabric proved to be
Matuck’s blood. An analyst found several other DNA profiles on the fabric.
14

—Case 4:12-cr-00022-BMM Document 151 Filed 04/17/18 Page 15 of 28

These profiles could have come from Whiteman and/or Brown (or presumably his
twin brother), or from one-in-510 to one-in-140 randomly selected Native
Americans.
An FBI analyst found fibers from the carpet behind the recliner on the shirt
and shorts that Matuck had been wearing when he was taken into protective
custody. The analyst found more fibers on the recliner, and on the strip of fabric
that Matuck had hidden under a brick at a nearby home.
Whiteman was the major contributor to DNA found in the fabric at the top
rear of the recliner. Swanson and Brown did not contribute any of that DNA.
Matuck could have been a minor contributor, but so could one-in-five to one-inthree randomly selected Native Americans.
A pathologist testified that Brown had been strangled with a soft ligature for
at least 30 seconds. Asked to examine the strip of grey t-shirt fabric Matuck had
concealed under the brick, the doctor found “[t]he texture of this cloth is perfect”
and, as a ligature, it “would be sufficient” to have strangled Brown.
2. Matuck’s Allegations
g. Pretrial Investigation
Matuck argues that counsel should have investigated Wes Grey Bull and
Raymond Leggitt. See Mot. § 2255 at 5 ]f 5C(i), 21 para. 2, 21 para. 2.
Whiteman’s first contact with Matuck on the evening in question occurred at
15

Case 4:12-cr-00022-BMM Document 151 Filed 04/17/18 Page'16 of28:

Grey Bull’s house, where several people had gathered to watch a UFC fight on
pay-per-view. See 1 Trial Tr. at 77:20-78:25. Grey Bull has children with the
sister of Gabe Garfield, who later saw Matuck hiding the strip of fabric. Matuck
says he “did not know Gabe Garfield and Wes Grey Bull had family ties.” Matuck
contends that “[t]hese facts could have had an effect on Matuck’s case, if raised by
trial attorneys,” Mot. § 2255 at 21 para 2.
The Court gave Matuck an opportunity to explain what effect knowledge of
a family relationship between Grey Bull and Garfield would have had. In
response, Matuck stands on the allegations in his motion. See Resp. to Order (Doc.
149) at 1.
Many people in Poplar know each other and are related to each other. None
of the trial witnesses suggested Grey Bull was present or involved in anything that
occurred after Whiteman, Brown, and Matuck left his house. In Matuck’s motion
for new trial, counsel Hoovestal proffered that Grey Bull was at Whiteman’s home
when Brown died, but Hoovestal explained that Matuck did not tell trial counsel.
Hoovestal only heard the allegation three months after trial. See Br. in Supp. of
Mot. for New Trial (Doc. 113) at 2-4.
At sentencing, Matuck said that he “did notify Vann [Arvanetes] that he
might need to investigate Wes Graybull.” Sentencing Tr. (Doc. 132) at 10:19-22.
Matuck never told Arvanetes why investigator Graybull might be worthwhile.
16

Case 4:12-cr-00022-BMM Document 151 Filed 04/17/18 Page 17 of 28

Nothing that Matuck alleges in his § 2255 motion, or in his response to the order,
supports an inference that trial counsel unreasonably failed to investigate Grey
Bull’s whereabouts at the time of the murder.
The trial transcript contains no mention of Leggitt. Matuck does not say
who Leggitt is or what relevant information Leggitt might possess, or what
information about Leggitt might be relevant to Matuck’s petition.
Matuck’s allegations fail to support an inference that trial counsel
unreasonably failed to investigate either Grey Bull or Leggitt or that Matuck
suffered prejudice as a result.
b. Motion to Suppress
Matuck contends that “[tjrial attorneys could have stated that Matuck
requested an attorney during the FBI interview.” Matuck further contends that his
trial counsel should have argued that he had been “legally intoxicated and Agent
Overby ignored his rights.” Mot. § 2255 at 23 para. 2.
Counsel filed a motion to suppress Matuck’s statements to the FBI as
involuntary due to his intoxication. See Mot. to Suppress & Br. in Supp. (Docs.
34, 35); Mot. Hr’g Tr. (Doc. 130) at 6:9-49:4. Counsel did not argue that Matuck
asked for a lawyer. A witness would have had to testify that Matuck asked for a
lawyer. Matuck makes no claim that he actually asked for a lawyer. He argues
instead that counsel should have claimed that he had asked.
17

Case 4:12-cr-00022-BMM Document 151 Filed 04/17/18 Page 18 of 28

Officer Dale testified at trial that Matuck asked to talk to a lawyer when he
entered the jail around 11:45 a.m. See 3 Trial Tr. at 308:15-309:4. Matuck was
not interrogated at that time. He was not entitled to see a lawyer at that time.
Matuck has failed to meet either prong of the Strickland test.
c. Voir Dire
Matuck claims that a tribal investigator made a statement to the newspaper
and that newspaper articles “were published as if Matuck were charged and guilty.”
Mot. § 2255 at 20 para. 6, 21 para. 1. Four jurors, Sather, Spotts, Miranda, and
Ross, said they had heard or read media coverage or community gossip about the
case, but would consider only the evidence presented in court. 2 Trial Tr. (Doc.
126) at 44:14-47:2 (under seal); see also id. at 59:21-60:8. None of these four
wound up on the jury. See id. at 83:7-21. This portion of Matuck’s claim fails to
meet either prong of the Strickland test.
Matuck also alleges that a juror had the last name of Brown, the same as the
victim. See Mot. § 2255 at 23 para. 1. The Court addresses this claim in a separate
order.
d. Allegedly Unprofessional Conduct
Matuck claims one of his lawyers gave him an “unprofessional” fist bump
during trial and another “had his head down and was not paying attention during
Matuck’s trial.” Matuck also complains that when he asked counsel a question
18

Case 4:12-cr-00022-BMM Document 151 Filed 04/17/18 Page 19 of 28

about certain evidence or a witness statement, he would receive additional
discovery addressing his question about a week later. See Mot. § 2255 at 22 paras.
2-3.

Counsel must investigate information provided by a client to determine
whether the information proves relevant to the client’s defense. When, like
Matuck, a defendant has two lawyers, one can focus on upcoming issues while the
other listens to testimony. The fist bump was not unprofessional; it is the kind of
thing that can humanize a client for the jury. No claim for relief is available on
these facts.
Matuck says counsel “had [him] wearing jail-issued slippers during trial,
which is like wearing jail-issued handcuffs.” Mot. § 2255 at 22 para. 4. Unlike
handcuffs or shackles, slippers do not connote dangerousness. A reasonable
person would recognize they may serve purposes other than restraint, such as
ameliorating the pain of an ingrown toenail. Reasonable jurors would not have
been influenced by Matuck’s jail-issue slippers.
e. Exhibit 11
Matuck says the “initial report” of analysis of Exhibit 11, the grey strip of
fabric, “had inconclusive DNA as to Raymond Brown.” Mot. § 2255 at 19 para. 2.
The report shows that testing excluded Brown as a contributor of DNA found in
one location on the fabric. The same testing included Brown as a potential
19

Case 4:12-cr-00022-BMM Document 151 Filed 04/17/18 Page 20 of 28

contributor to DNA found in another location on the fabric. See FBI Report (Doc.
56-1) at 3-4 (concerning Q58-1 and Q58-15). Nothing contradictory arises from
these differing test results. It seems reasonable that some of the blood on the fabric
belonged to Brown and some did not.
f. Prior Inconsistent Statements
Matuck argues that counsel should have pointed out that witnesses’
statements conflicted with each other, some witnesses’ pretrial statements differed
from their trial testimony, and the timeline of events changed. See Mot. § 2255 at
5 Tj C(i), 17 para. 2, 18 para. 2, 20 para. 2. These scenarios often arise as trial.
Juries decide whether the conflicts matter, what they mean, and which statements
are worthy of belief.
Matuck says Whiteman’s “initial statement was that he did not know what
happened,” but at trial, “he has a different version of what he claims happened.”
Mot. § 2255 at 18 para. 2. Under the circumstances, it seems likely Whiteman said
he did not know how Brown died. He did not testify at trial as to how Brown died.
No inconsistency appears. At any rate, no one would have been surprised to find
discrepancies between Whiteman’s pretrial statements and his trial testimony. His
memory of the night in question was spotty, and his testimony was somewhat
rambling. Matuck’s counsel reminded the jury of these discrepancies. See, e.g., 4
Trial Tr. at 577:10-578:5.
20

-Case 4:l’2-cr-00022:BMM "Document 151 Filed 04/17/18 Paqe-21-of-28------

Matuck alleges that Swanson also made inconsistent statements. Swanson
remembered Matuck “grabbed Lance or something like that,” but did not testify
that Matuck tried to choke him or said anything about having been in the Marines.
3 Trial Tr. at 252:12-254:8; see Mot. § 2255 at 17 para. 4. The prior statement, in
which Matuck claims that Swanson grabbed Lance seems more incriminating.
Most competent lawyers would want to highlight these statements. Matuck
suffered no prejudice from its omission.
Matuck also claims that Swanson “immediately claimed Raymond Brown
was murdered” and counsel should have asked her to explain how she knew that
fact. See Mot. § 2255 at 17 para. 3. Swanson did not make that claim during her
testimony at trial. To whatever extent she made it in a pretrial statement, again,
that statement was at least potentially more incriminating than her trial testimony
and so counsel declined to raise the issue.
g. Fight Between Matuck and Brown
Matuck faults investigators for not collecting evidence to prove or disprove
that Matuck and Brown fought with each other inside or outside the car. He also
claims that, if a fight occurred, his DNA should have been found on Brown’s
clothes or body. The DNA testing found none. See Mot. § 2255 at 18 para. 3, 19
para. 1, 20 para. 4.
No witness testified that the fight did not occur. The fight explained
21

Case 4:12-cr-0QQ22-BMM Document 151 Filed 04/17/18 Page 22 of 28

Matuck’s bloody nose. Whether it happened inside or outside the car proved
irrelevant to any contested issue. Even assuming a DNA transfer occurs every time
skin or blood contacts other clothing or skin, that does not mean trace DNA
evidence would be found every time a transfer occurs. And even if trace DNA
evidence had been found on Brown’s body or clothing, that evidence would not
prove whether a fight had taken place.
h. Marine Corps Training
Matuck contends that counsel should have asked Lt. Col. Shusko whether he
personally trained Matuck in the use of the garrote technique. Matuck also claims
that he “missed two days of recruit training to retake the written test while in boot
camp” and “did not receive training on this technique.” Mot. § 2255 at 23 para. 4.
The government presented evidence that Matuck had received the Tan Belt
Manual. See Notice (Doc. 27) at 6-7; Exhibit List (Doc. 94) (Ex. 17); 2 Trial Tr.
(Doc. 127) at 172:9-173:1. The Tan Belt Manual included instruction and
information about garroting. See 2 Trial Tr. at 175:4-176:10. It is not reasonably
probable that Matuck would have been acquitted if his counsel had presented
evidence that he had missed the training.
i. Identification of Matuck
Matuck suggests that counsel should have argued the witnesses did not
identify him in person, but only from a photograph. See Mot. § 2255 at 21 para. 3.
22

-Case 4:12-cr-00022-BMM Document 151 Filed 04/17/18 Page 23 of 28

Matuck sported a shaved head at the time of the murder. See 3 Trial Tr. at 326:1619. Matuck had grown out his hair at the time of trial. See, e.g., Presentence
Report at 2 (photograph of defendant).
j. Premeditation
Matuck argues that there was “no premeditation because the statements are
inconsistent throughout the investigation.” Mot. § 2255 at 20 para. 3. This claim
fails to support Matuck’s theory. The 30 seconds that it took to kill Brown could
have provided sufficient evidence of premeditation.
k. The Recliner
Matuck argues that blood would have been found on the recliner if Brown
had hit him and given him a nosebleed that lasted for hours. Mot. § 2255 at 18
para. 3. Matuck told Agent Overby that his nose had been bleeding all night.
Whiteman and Swanson said the same thing. The jury knew that none of Matuck’s
blood had been found on the recliner. The jury considered whether the absence of
Matuck’s blood on the recliner meant he was not near the recliner. The jury
rejected Matuck’s argument that he had not been near the recliner.
1. Allegedly Omitted Facts
Finally, Matuck claims that counsel did not point out the following items.
They did.
Investigators found no footprints in the dust behind Brown’s recliner. See
23

•Case~4:12::cr-0002243MM—Document 151 Filed 04/17/18 Page-24of-28

Mot. § 2255 at 5 Tf C(i), 18 para. 3, 19 para. 4; 4 Trial Tr. (Doc. 128) at 580:20581:4.
Brown had taken methamphetamine and had “been up” for “a few days.”
See Mot. § 2255 at 19 para. 5, 20 para 1; 1 Trial Tr. at 114:15-115:8, 123:11-20; 4
Trial Tr. at 579:7-9. It is not immediately apparent whether the alleged presence
of needles in Brown’s pocket would have made any difference in the outcome.
Brown assaulted Vondall and Matuck defended her. See Mot. § 2255 at 17
para. 5-6, 18 para. 1; 4 Trial Tr. at 579:17-580:2, 585:23-586:6.
Investigators never found the t-shirt from which, according to the
government’s theory, the garrote had been fashioned. See Mot. § 2255 at 19 para.
3; 4 Trial Tr. at 453:1-11, 498:7-500:7, 580:10-11, 583:17-25.
Brown was taller and heavier than Matuck. See Mot. § 2255 at 23 para. 3; 3
Trial Tr. at 405:23-406:4.
Although Matuck was wearing shorts and the strangler probably used his
knee for leverage, no one tested the back of the recliner for DNA. See Mot. § 2255
at 18 para. 3; 4 Trial Tr. at 586:15-587:24.
Matuck was wearing the grey shirt and shorts while he was in Whiteman’s
trailer. The grey shirt belonged to Whiteman. Fibers from the carpet behind the
recliner could have been transferred to Matuck’s shirt and shorts and then to the
recliner. See Mot. § 2255 at 20 para. 5; 3 Trial Tr. at 433:18-434:6; 4 Trial Tr. at
24

. Case 4:12-cr-00022-BMM Document 151 Filed 04/17/18 Page 25 of 28

587:8-20.

Finally, although Matuck asserts that counsel “did not argue that a thorough
investigation was not conducted,” Mot. § 2255 at 18 para. 3, that was a central
component of the defense theory at trial. See, e.g., 1 Trial Tr. at 61:9-13, 66:17-22;
4 Trial Tr. at 575:4-12, 583:6-25, 584:7-19, 586:15-24, 587:22-588:5, 591:2-15,
593:5-8. Specifically, Matuck’s counsel focused on the absence of an eyewitness.
See Mot. § 2255 at 21 para. 4, 22 para. 1; 1 Trial Tr. at 59:22; 4 Trial Tr. at 575:1012.
m. Conclusion
None of Matuck’s allegations supports both an inference that counsel’s
performance may have been unreasonable and an inference that there exists a
reasonable probability the outcome might have been different. All claims
concerning counsel’s performance at trial are denied.
D. Matters in Fort Peck Tribal Court
Matuck contends that he was detained on the authority of the Fort Peck
Tribal Court for about a year that his tribal counsel had a conflict of interest, and
that he was treated less favorably than similarly situated inmates who were tribal
members. He also claims that the Fort Peck Police Department continued his
detention despite a release order from the Tribal Court, to punish him for murder
without charge or an opportunity to defend himself. See Mot. § 2255 at 25-31.
25

.Case 4:12-cr-00022-BMM Document 151 Filed 04/17/18 Page 26 of 28

Even assuming these allegations are true, they do not undermine the validity
of Matuck’s conviction or sentence in federal court. Other than Agent Overby’s
interview on August 7, 2011, when Matuck was initially taken into protective
custody, the United States did not use against Matuck any statement he might have
made in tribal court or while in tribal detention. Voir dire revealed no reason to
believe seated or potential jurors were unfairly biased against him. No reason
exists to infer that Matuck’s allegedly unlawful detention caused or contributed to
his federal conviction or sentence.
Matuck asserts that his time in tribal custody “is not included in Matuck’s
prison sentence” and “[h]ad that time been added to Matuck’s federal prison
sentence, Matuck would have no argument.” Mot. § 2255 at 30, 31. The Court
sentenced Matuck to a mandatory term of life in prison. See Judgment (Doc. 116)
at 2; 18 U.S.C. § 1111(b)(1). No parole exists for a federal offense. No claim is
available under these circumstances.
This claim is denied.
E. Ineffective Assistance of Appellate Counsel
Though framed as ineffective assistance of appellate counsel, Matuck directs
these claims at the counsel who represented him after trial, through sentencing and
appeal. The standards of Strickland govern claims of ineffective assistance of
appellate counsel. See Smith v. Robbins, 528 U.S. 259, 285 (2000).
26

_Case 4:12-cr-00Q22-BMM Document 151 Filed 04/17/18 Page 27 of 28

1. Dismissal of Second Indictment
Matuck contends that counsel denied him “the right to a fair trial” by
agreeing to the United States’s motion to dismiss a second indictment against him
that charged aggravated sexual abuse, sexual abuse, and abusive sexual contact.
See Mot. § 2255 at 4, 14-15; see also Indictment (Doc. 1), United States v. Matuck,
No. CR 12-58-GF-SEH (D. Mont. Aug. 1, 2012). A defendant suffers no prejudice
by dismissal of criminal charges against him. This claim is denied.
2. Rehearing
Matuck claims counsel caused him to miss the deadline for filing a petition
for rehearing on appeal. Matuck identifies no potentially valid point that he was
unable to raise. See Fed. R. App. P. 35(a), 40(a)(2). This claim is denied.
3. Trial Counsel
Matuck also alleges that appellate counsel failed to raise trial counsel’s
allegedly ineffective assistance as grounds for relief on appeal. Matuck has
identified only one potentially valid claim regarding voir dire. This claim could
not have been raised on direct appeal as it requires an investigation of the relevant
facts. See, e.g., Massaro v. United States, 538 U.S. 500, 505 (2003). This claim is
denied.

Accordingly, IT IS HEREBY ORDERED that, except for Matuck’s claim
alleging that trial counsel provided ineffective assistance in voir dire, all claims are
27

Case 4:12-cr-00022-BMM Document 151 Filed 04/17/18 Page 28 of 28

DENIED for lack of merit. They will not be further considered.
DATED this 17th day of April, 2018.

17

u
Brian Morris
United States District Court Judge

28

